January 11, 2001
Audit Report No. 01-002


Audit of Billings for Professional
Services Provided by ACS
Government Solutions Group
                                   TABLE OF CONTENTS


BACKGROUND                                                                  1

OBJECTIVE, SCOPE, AND METHODOLOGY                                           3

RESULTS OF AUDIT                                                            5

UNALLOWABLE LABOR CHARGES                                                   5

       ACS Personnel Did Not Always Meet Minimum Qualifications             6

       ACS Billed Personnel at Incorrect Rates                              8

ACS BILLED THE FDIC FOR LABOR CHARGES FOR A KNOWN FELON                     9

CONCLUSION AND RECOMMENDATIONS                                             12

CORPORATION COMMENTS AND OIG EVALUATION                                    13


TABLES

Table 1: FDIC 1998 and 1999 Payments to ACS                                 2

Table 2: FDIC Payments to ACS and OIG Questioned Costs by Delivery Order    5

Table 3: Summary of ACS Billings by Category                                6

Table 4: Summary of ACS Incorrect Billing Rates                             8

Table 5: ACS Employees Requiring Background Investigations                 10


APPENDIXES

Appendix I:    Methodology for Calculating Questioned Labor Costs          14

Appendix II:   Corporation Comments—Division of Finance                    15

Appendix III: Corporation Comments—Division of Administration              16

Appendix IV: Management Responses to Recommendations                       20
Federal Deposit Insurance Corporation                                                            Office of Audits
Washington, D.C. 20434                                                               Office of Inspector General




   DATE:         January 11, 2001

   TO:           Arleas Upton Kea, Director
                 Division of Administration

                 Donald C. Demitros, Director
                 Division of Information Resources Management

                 Fred Selby, Director
                 Division of Finance



   FROM:         Sharon M. Smith
                 Assistant Inspector General

   SUBJECT: Audit of Billings for Professional Services Provided by ACS Government Solutions
            Group (Audit Report No. 01-002)

   This report presents the results of an audit of ACS Government Solutions Group’s (ACS) billings to the
   Federal Deposit Insurance Corporation (FDIC) for various information technology services. The audit
   addressed whether ACS’s billings were allowable and adequately supported under the terms and
   conditions of its General Services Administration (GSA) Federal Supply Schedule contract and the
   FDIC’s delivery orders awarded under that contract.


   BACKGROUND

   Contracts awarded by the GSA known as Federal Supply Schedules are used to facilitate the timely
   acquisition of goods or services by any federal agency or other qualifying agency. The GSA’s Federal
   Supply Schedule contracts provide federal agencies with a simplified process for obtaining commonly
   used commercial supplies and services at prices associated with volume buying. The GSA establishes
   indefinite delivery contracts with commercial firms to provide supplies and services at stated prices.
   Ordering offices issue delivery orders directly to registered firms for supplies and services. GSA
   considers the program streamlined because it reduces the time needed by agencies to acquire goods
   and services.

   In 1997, the FDIC’s Division of Administration (DOA), which is responsible for soliciting and awarding
   contracts, began to streamline its procurement process by issuing delivery orders to firms with GSA
Federal Supply Schedule contracts. During 1998 and 1999, the FDIC paid $17,795,785 that ACS
billed under 10 delivery orders that the FDIC awarded under the GSA’s Federal Supply Schedule
contract GS-35F-4415G with ACS and its predecessor, Computer Data Systems. The GSA’s
contract with ACS provides for the purchase of various information technology services such as systems
analysis and design, installation, programming, conversion and implementation support, network
services, project management, data and records management, resources and facilities management, and
database planning and design. Table 1 shows the services that ACS provided; performance period;
not-to-exceed amount as of December 31, 1999; and amount that the FDIC paid during 1998 and
1999 for each of the 10 delivery orders.

Table 1: FDIC 1998 and 1999 Payments to ACS
    Delivery               System Development                   Period of Not-to-Exceed                1998-1999
     Order                  Services Provided                  Performance  Amounts                    Payments
 9701315NLH Financial data warehouse and                       10/15/97 to        $    598,405        $    546,931
             corporate budgeting system                         12/31/97
 9701438CVB Financial data warehouse and                       12/19/97 to            1,807,200           1,782,322
             data access methodology                            12/18/98
 9701486CJT Planning, budgeting, and other                     12/19/97 to            1,455,500           1,228,711
             financial reporting systems                        12/18/99
 9800455CAF* Business process redesign                         05/20/98 to            9,500,000           4,435,256
             services                                           12/31/99
 9800542CJT Personal computer technical                        06/26/98 to         11,105,310             6,246,889
             services                                           06/25/00
 9800779OEU Executive office software                          08/24/98 to            1,992,828           1,916,269
             management section support                         12/31/99
 9801260CS2 Financial data warehouse and                       12/14/98 to            1,980,662            795,529
             data access methodology                            12/13/00
 9801264CTL National client application server                 02/08/99 to            1,998,040            662,336
             support                                            02/07/01
 9900257CEU Application technology section                     07/12/99 to             632,890             124,164
             support                                            07/11/00
 9900443ORM Executive office software                          10/16/99 to             865,500                 57,378
             management section support                         10/31/00
      Totals                                                                      $31,936,335         $17,795,785
*Division of Finance delivery order; all other delivery orders are for the Division of Information Resources
Management.

Source: OIG research and review of FDIC contract files and paid invoices.




                                                           2
OBJECTIVE, SCOPE, AND METHODOLOGY

The audit objective was to determine whether ACS’s billings were allowable and adequately supported
under the terms and conditions of its GSA Federal Supply Schedule contract and the FDIC delivery
orders. We reviewed 392 invoices totaling $17,795,785 that ACS billed under 10 delivery orders that
the FDIC paid between January 1, 1998 and December 31, 1999.

To accomplish our objective, we:

     •   Reviewed FDIC and GSA policies pertaining to Federal Supply Schedules.

     •   Identified all FDIC payments made during the period January 1, 1998 through December 31,
         1999 to ACS and its predecessor, Computer Data Systems.

     •   Interviewed and corresponded with the FDIC’s contracting officer, oversight managers, and
         security personnel; ACS’s contract directors; and the GSA’s primary contracting officer and an
         information technology project manager.

     •   Reviewed the FDIC contracting officer’s contract monitoring files and oversight managers’
         contract oversight files.

     •   Reviewed the terms and conditions of ACS’s Federal Supply Schedule contract
         GS-35F-4415G with the GSA and the FDIC’s 10 delivery orders awarded under that
         contract.

     •   Reviewed ACS’s 392 invoices that the FDIC paid between January 1, 1998 and
         December 31, 1999.

     •   Prepared an electronic database from ACS’s 392 invoices consisting of 2,755 individual billing
         lines for all fees and expenses.

     •   Analyzed the invoices and billing lines to determine whether the FDIC made any duplicate
         payments.

     •   Compared the hours that ACS proposed for each labor category under each FDIC delivery
         order to the hours billed to determine whether the total hours and actual labor mix differed
         significantly from the proposals.

     •   Reviewed employee personnel files, job application forms, and resumes for 212 ACS and
         subcontractor employees who charged time to the FDIC’s delivery orders.

     •   Analyzed experience and education qualifications for the 212 ACS and subcontractor
         employees to determine whether they met the GSA’s Federal Supply Schedule minimum
         experience and education requirements and the FDIC’s delivery order descriptions.

     •   Calculated questioned costs based upon the minimum experience and education requirements of
         ACS’s Federal Supply Schedule contract GS-35F-4415G with the GSA and the FDIC’s


                                                    3
         delivery order labor category descriptions. For each billing line, we analyzed, calculated, and
         categorized the labor charges. (A complete description of our methodology for calculating
         questioned costs is included in appendix I.)

     •   Reviewed the FDIC’s policies on contractor employee security.

     •   Determined whether ACS’s employees and subcontractor personnel had access to FDIC
         facilities or information systems, thus requiring background investigations.

     •   Reviewed security files to determine whether the FDIC performed required background
         investigations for the 212 ACS and subcontractor personnel.

     •   Provided FDIC and ACS officials with our preliminary audit results to verify the accuracy and
         validity of our findings, seek agreement on causes, and develop recommendations.

We did not review ACS’s billings for travel and other direct charges because they were not material to
the overall contract charges.

To order services from ACS’s Federal Supply Schedule contract, the FDIC issued delivery orders that
incorporated by reference the FDIC’s performance-based statements of work. These statements of
work outlined the tasks to be performed, location of work, period of performance, applicable
standards, acceptance criteria, and desired labor categories with descriptions of personnel including
standards for experience and education. However, the ACS’s Federal Supply Schedule contract also
contained minimum experience and education requirements for each labor category and the
experience/education requirements between the two sets of documents did not always agree.

Because of the conflicting experience and education requirements, the OIG established its own criteria
against which to compare actual qualifications. We first looked to the Federal Supply Schedule
contract, which contains a clause specifically stating that when a conflict exists between the GSA’s
Federal Supply Schedule contract and an agency’s delivery order the Federal Supply Schedule contract
shall control. However, the FDIC’s delivery orders also contained specific language regarding
employee qualifications. Accordingly, the FDIC delivery orders may have changed the GSA contract
terms. Because it is not clear which terms would have legal standing, the OIG elected to question costs
based on the terms that were the most favorable to the contractor. Accordingly, for this audit we
consistently questioned costs based on ACS’s Federal Supply Schedule contract labor categories and
qualifications. Such an approach resulted in a more conservative calculation of questioned costs.

We did not evaluate internal controls because we concluded that we could meet the audit objective
more efficiently by conducting substantive tests rather than placing reliance on the system of internal
controls. The OIG conducted the audit from December 1999 through August 2000 in accordance with
generally accepted government auditing standards.




                                                     4
RESULTS OF AUDIT

The FDIC paid ACS $17,795,785 between January 1, 1998 and December 31, 1999 under
10 delivery orders for professional services, travel expenses, computer equipment, and computer
supplies. Generally, ACS billed the FDIC for allowable services under the terms and conditions of its
GSA contract and the FDIC’s delivery orders awarded under that contract. ACS also provided the
FDIC with adequate support for its billings. However, ACS billed 65 of its 212 employees and
subcontractor personnel at higher labor rates than warranted by their individual qualifications. We
questioned $1,064,364 of the $17.8 million that the FDIC paid ACS. Of that amount, we questioned
$986,191 for ACS employees who did not meet the education and/or experience requirements in its
Federal Supply Schedule contract with the GSA. In addition, we questioned $2,586 because ACS
billed employees at higher rates than allowed under its delivery orders with the FDIC and $75,587 for
one employee who disclosed to ACS on his employment application that he was a convicted felon.
Furthermore, the FDIC did not perform required security checks in a timely manner. Table 2 shows the
FDIC’s total payments to ACS during 1998 and 1999 and the amounts that we questioned (6 percent
overall) for each delivery order.

Table 2: FDIC Payments to ACS and OIG Questioned Costs by Delivery Order
     Delivery Order               Amount Paid              Questioned Costs          Percent Questioned
     9701315NLH                   $     546,931                $    42,658                     7.8
     9701438CVB                       1,782,322                    180,703                    10.1
     9701486CJT                       1,228,711                     83,704                     6.8
     9800455CAF                       4,435,256                    383,730                     8.7
     9800542CJT                       6,246,889                    236,661                     3.8
     9800779OEU                       1,916,269                     94,755                     4.9
     9801260CS2                         795,529                     30,738                     3.9
     9801264CTL                         662,336                          0                     0.0
     9900257OEU                         124,164                      7,818                     6.3
     9900443ORM                          57,378                      3,597                     6.3
           Total                  $17,795,785                  $1,064,364                       6.0
Source: OIG analysis of FDIC contract files and ACS employees’ experience and education requirements.



UNALLOWABLE LABOR CHARGES

ACS generally billed allowable labor charges and provided adequate support for its billings. However,
ACS billed the FDIC for some employees that did not meet its Federal Supply Schedule education
and/or experience requirements. ACS also billed some employees at rates not specified in the FDIC’s
delivery orders. Specifically, of the 212 contract employees that it provided, ACS billed 65 that did not
meet contract specifications. As table 3 shows, ACS billed




                                                       5
the FDIC for 39 employees that did not meet experience and/or education requirements, 25 employees
at incorrect rates, and 1 employee that was a known felon at the time he was hired.

Because some employees that ACS billed are included in more than one category, we accumulated
costs by individual monthly charges for each contract employee (billing lines) to eliminate any duplicate
questioned costs. Table 3 shows the number of employees, billing lines, amount billed, and questioned
costs by billing category.

Table 3: Summary of ACS Billings by Category
                                     Number of                    Billing          Total         Questioned
             Category                Employees                    Lines            Billed          Costs
    Did not meet experience requirement               27             311        $2,578,237          $715,741
    Did not meet education requirement                 6              60           397,776           135,476
    Did not meet both requirements                     6              60           443,857           137,572
    Billed at incorrect rates/billing errors          25              36           260,350             2,586
    Convicted of felony                                1              13            75,587            75,587
    Total employees billed incorrectly               65              480        $3,755,807        $1,066,962
    Employees meeting all requirements              185            2,084        13,977,733                 0
    ACS’s labor-related corrections                  12               22           (20,167)           (2,598)
    Included in more than one category*             (50)               0                 0                 0
    Total labor-related charges                     212            2,586       $17,713,373        $1,064,364
    ACS’s nonlabor-related adjustments                0                3                 0                 0
    ACS’s nonlabor-related corrections                0                4              (300)                0
    Prompt payment discounts                          0              112           (34,097)                0
    Other direct charges                              0               29            72,479                 0
    Travel                                            0               21            44,330                 0
    Total contract billings                         212            2,755       $17,795,785        $1,064,364
*
 Some employees were included in more than one category. Therefore, the number of employees accounted for
exceeds the 212 employees that ACS billed under the 10 delivery orders.

Source: OIG analysis of FDIC contract files and ACS employees’ experience and education requirements.



ACS Personnel Did Not Always Meet Minimum Qualifications

ACS’s Federal Supply Schedule contract GS-35F-4415G with the GSA established minimum
experience and education requirements for various labor categories. However, the employees that
ACS billed under its 10 delivery orders with the FDIC did not always meet those experience and
education requirements. Of the 2,586 individual labor charges, ACS billed 431 charges to the FDIC
for employees who did not meet the education and/or experience requirements specified in its Federal
Supply Schedule contract with GSA. For each of those 431 charges, we




                                                       6
determined the labor category for which the employee would qualify. We then reduced the maximum
allowable rate for that category by the average discount offered on the delivery order and questioned
the difference between the discounted maximum allowable rate and the actual rate billed. In total, we
questioned $986,191—$988,789 less $2,598 for adjustments that ACS had already made—that the
FDIC paid ACS.

Specifically, 27 of the 212 employees that ACS billed to the FDIC did not meet the minimum
experience requirements. ACS billed 311 individual labor charges to the FDIC for those 27 employees
totaling $2,578,237, and we questioned $715,741 of that amount.

Six of the employees that ACS billed to the FDIC did not meet the minimum education requirements.
Generally, those employees did not have bachelors degrees or enough years of experience to substitute
for a degree as required by ACS’s Federal Supply Schedule. ACS billed 60 labor charges for those
six employees totaling $397,776, and we questioned $135,476 of that amount.

Finally, six additional employees that ACS billed to the FDIC did not meet the minimum requirements
for both experience and education. ACS billed 60 labor charges for those six employees totaling
$443,857, and we questioned $137,572 of that amount.

FDIC oversight managers stated that they evaluated contractor employee qualifications based primarily
on personnel descriptions contained in the FDIC’s delivery orders. As we previously stated, those
descriptions were part of the statements of work included in the FDIC’s requests for quotation.
However, only two of the eight oversight managers compared employee qualifications to requirements in
ACS’s Federal Supply Schedule contract with the GSA under which the FDIC awarded the
10 delivery orders to ACS. The oversight managers stated that they generally did not consider the
labor category requirements in ACS’s Federal Supply Schedule contract with GSA.

According to the FDIC oversight managers and ACS officials, the FDIC accepted some contract
employees who did not meet minimum requirements because they had specific skills needed to complete
critical tasks. Although we acknowledge the need for those critical skills, the FDIC should have issued
modifications to its delivery orders adding labor categories for which the employees would have
qualified.

Further, according to ACS management, ACS believed that its responsibility to provide qualified staff
was restricted to the FDIC’s requirements specified in the delivery orders. ACS maintained that the
FDIC waived its Federal Supply Schedule contract experience requirements and accepted ACS’s
discounted rates as consideration for providing personnel with the qualifications specified in its delivery
orders. ACS also maintained that the FDIC further waived any differences in experience requirements
when the oversight managers approved resumes that ACS submitted. ACS believes that the questioned
billings comply with the requirements reflected in the delivery orders and related proposals.

The OIG disagrees with ACS’s position on this matter. Although we make no conclusion in this report
regarding the legal standing of the GSA qualification requirements versus those of the




                                                    7
FDIC’s delivery orders, we compared ACS employee qualifications to the descriptions in the FDIC’s
delivery orders. In many cases, ACS’s employees did not meet those qualifications either. In fact,
using the FDIC’s delivery order descriptions as ACS claims to have done—rather than the GSA’s
Federal Supply Schedule contract requirements—would actually increase total questioned costs by
$587,636 to $1,652,000.


ACS Billed Personnel at Incorrect Rates

The 10 delivery orders that the FDIC awarded to ACS under its Federal Supply Schedule contract
with the GSA contained set hourly rates for the specified labor categories. However, in some instances,
ACS billed higher rates than those set out in the delivery orders. In other instances, ACS provided and
billed for personnel in labor categories that the FDIC did not request. Of 2,586 individual labor charges
for professional services, ACS billed 36 labor charges to the FDIC at rates other than those specified in
the delivery orders or for labor categories that were not included in the delivery orders. Accordingly,
we questioned $2,586—the net difference in hourly rates for each labor hour charged less any
reimbursements already requested by the FDIC. Table 4 shows the individual items questioned.

Table 4: Summary of ACS Incorrect Billing Rates
                                                                Amount          Recovered Questioned
                         Category                                Billed        by the FDIC by the OIG
Billed in excess of approved rates                              $32,502          ($23,429)         $ 9,073
Billed for labor categories not in delivery orders               14,066                             14,066
Billed math errors                                              (20,553)                           (20,553)
Total                                                           $27,459          ($23,429)         $ 2,586
Source: OIG analysis of FDIC contract files and ACS employees’ experience and education requirements.



ACS billed 32 of the 36 billing errors on delivery order 9701315NLH when it increased billing rates
and added labor categories without any delivery order modifications. We questioned $32,502 for 16 of
the 32 errors when ACS billed contract employees working as systems analysts/data modelers at
$76.08 per hour rather than the $67 per hour rate agreed to under the FDIC’s delivery order. The
FDIC identified the overage after reviewing ACS’s invoice, and ACS repaid $23,429 for the billing rate
errors. However, 2 of the 16 employees billed erroneously also did not meet the GSA’s Federal
Supply Schedule contract minimum experience requirements resulting in the remaining questioned cost
of $9,073.

ACS billed 16 other labor charges for employees whose labor categories the FDIC did not request
under delivery order 9701315NLH. ACS also billed those 16 charges at the maximum rates allowed
under its Federal Supply Schedule contract with the GSA. However, ACS discounted other labor
categories in delivery order 9701315NLH by an average of 11.9 percent. Furthermore, one of the
contract employees billed under those labor categories did not meet the GSA’s Federal Supply
Schedule contract minimum qualifications for the labor category billed.




                                                       8
Specifically, ACS billed 13 charges for subject matter specialists to the FDIC at $51 per hour and
3 charges for a technical writer at $38 per hour.

For employees who met the GSA’s Federal Supply Schedule contract minimum requirements, we
questioned the difference between the actual rate billed and that same rate reduced by the average
discount (11.9 percent) that ACS gave under delivery order 9701315NLH. The allowable rates for
subject matter specialist and technical writer would have been $44.95 and $33.49, respectively. For
the one ACS employee who did not meet minimum Federal Supply Schedule qualifications for his labor
category, we matched his qualifications to a labor category in ACS’s Federal Supply Schedule with the
GSA for which that employee qualified. We then reduced the maximum allowable rate for that category
by the average discount (11.9 percent) given under the delivery order and questioned the difference
between the new discounted rate and the actual rate billed. Accordingly, we questioned a total of
$14,066 for those 16 billing errors.

The remaining 4 of the 36 total billing errors appeared to be mathematical errors. In two instances,
ACS included correct charges on the invoices but did not include those charges in the invoice total. For
the other two errors, ACS included an incorrect amount in an invoice total for one and used the wrong
hourly rate for the other. ACS underbilled the FDIC a total of $20,553 for those four billing errors.

In its response to our preliminary findings, ACS did not specifically address those billing errors. ACS’s
response stated in general that its billings under the referenced delivery orders were proper and in
accordance with the terms and conditions of its Federal Supply Schedule contract with the GSA and the
associated FDIC delivery orders.


ACS BILLED THE FDIC FOR LABOR CHARGES FOR A KNOWN FELON

Most employees that ACS provided to work on the FDIC’s delivery orders received background
investigations although the FDIC did not always perform those checks when required. However, some
ACS employees—including three convicted felons—improperly gained access to the FDIC’s facilities
and data. Moreover, one of the felons stated on his ACS employment application that he was a
convicted felon. Accordingly, ACS should not have used that individual to perform work under the
FDIC’s delivery orders. We questioned $75,587 that ACS billed the FDIC for that individual. Table 5
shows the total number of ACS employees provided and the number of those employees required to
have background investigations because either ACS designated them as key employees or they worked
in the FDIC’s facilities.




                                                   9
Table 5: ACS Employees Requiring Background Investigations
                               Number of             Background      Background          Required
       Employee                Employees             Investigation   Investigation     Investigation
   Type        Location         Provided               Required       Performed       Not Performed
Key                                  43                    43             38                  5
Nonkey        On-site               167                   167            128                 39
Nonkey        Off-site                2                     0              1                  0
          Total                     212                   210            167                 44
Source: OIG analysis of FDIC contract files and security records.

Section 5.B.9 of its Acquisition Policy Manual requires that the FDIC conduct background
investigations for its contractors’ management officials and key personnel when the contract award is
greater than $100,000. The manual also requires background investigations for all contractor personnel
working in the FDIC’s facilities (on-site). However, not all ACS personnel received background
investigations as required.

The FDIC Chief, Employee/Contractor Security Unit, verified that his office conducted background
investigations for 38 of ACS’s 43 key personnel. For the remaining five key personnel there was no
record of a background investigation being conducted by the FDIC and the contracting officer had no
record of a background investigation being requested. In addition, 39 of the 167 nonkey personnel
working on-site did not receive background investigations as required. The FDIC performed
background investigations for 128 of ACS’s 167 nonkey personnel working on-site. It also performed
a background investigation for one of the two nonkey employees working off-site, which was not
required.

Because the FDIC did not perform all required background investigations, some contract employees
improperly gained access to FDIC facilities and data, including three that had felony convictions. One
of the three, employee A, was convicted of several felonies—two drug charges, one firearms charge,
and one assault—and was on probation the entire time that he worked at the FDIC.

The FDIC’s Acquisition Policy Manual (section 8.F.) and the Code of Federal Regulations
(12 C.F.R. 366.4) both prohibit a convicted felon from performing services under an FDIC contract.
ACS hired employee A to work on its FDIC delivery orders as a senior microcomputer specialist
although the employee disclosed on his ACS employment application that he was a convicted felon.
ACS may have overlooked the employee’s disclosure because he was already working for another
contractor at the FDIC as a lead microcomputer specialist when ACS took over those services.
Employee A began working at the FDIC in August 1997 for another contractor and continued working
at the FDIC under ACS’s contract from October 1998 through October 1999. It was not until
November 1999—28 months after he began working there—that the FDIC initiated a background
investigation. Employee A again indicated on the FDIC background investigation forms that he was a
convicted felon. The FDIC sent his fingerprints to the Federal Bureau of Investigation (FBI) for
processing, and in late December 1999 the FBI’s




                                                        10
report to the FDIC showed that employee A had an extensive criminal record. In January 2000, the
FDIC required ACS to remove employee A. Nonetheless, ACS should not have used employee A on
this contract based on that individual’s employment application disclosure. Accordingly, we questioned
the entire $75,585 that ACS billed for employee A.

In addition, employee B, a microcomputer support specialist did not disclose his felony conviction on his
employment application dated January 30, 1997. The FDIC sent employee B’s fingerprints to the FBI
for processing in August 1998. The FDIC received the FBI’s report on August 31, 1998, which
showed that employee B had felony convictions. However, employee B continued working on-site at
the FDIC until April 1999 because the Employee/Contractor Security Unit was awaiting confirmation
on the disposition of employee B’s conviction before notifying the Acquisition Services Branch that
employee B should be removed. In total, ACS billed the FDIC $33,953 for employee B during the
9 months that employee B worked for an ACS subcontractor. However, we did not question the
amounts billed because employee B did not disclose his felony conviction on his employment
application.

Likewise, employee C, a senior systems analyst, did not disclose his felony conviction on his ACS
employment application dated November 2, 1998. Employee C disclosed that he had worked
previously at the FDIC for another contractor during the period January 1996 through March 1997.
The FDIC sent employee C’s fingerprints to the FBI in February 1997—when that employee worked
for the former contractor—and again in November 1998 when he worked for ACS. The FBI’s reports
to the FDIC in June 1997 and December 1998 both showed that employee C had a felony conviction.
However, the FDIC did not act on the FBI’s June 1997 report because the former contractor had
terminated employee C in March 1997. In response to the FBI’s December 1998 report, the FDIC
immediately notified ACS to remove employee C from working on the FDIC’s delivery orders. In
total, ACS billed the FDIC $10,934 for employee C during the 2 months that he worked at the FDIC.
Like employee B, we did not question the amounts billed because employee C did not disclose his
felony conviction to ACS on his employment application.

In March 2000, the FDIC updated its Acquisition Policy Manual and reviewed its current contract
files to ensure that it completed or requested background investigations for all on-site employees.
Those changes did not require the FDIC to complete background investigations before granting contract
personnel access to the FDIC’s facilities and data. The manual generally states that the FDIC should
not award a contract until the contracting officer receives the results of the background investigation
review in which no disqualifying conditions or personnel are identified. However, in light of the fact that
three convicted felons that ACS employed worked on-site at the FDIC, the FDIC did not comply with
its Acquisition Policy Manual or 12 C.F.R. 366.4 prohibitions. Employee A had access to the
FDIC’s critical systems and sensitive data for more than 2 years, and employees B and C had access
for 9 months and 2 months, respectively, before being terminated.

The condition we point out in this finding raises concern regarding the FDIC’s background investigation
policies. However, the OIG is currently addressing the issue of background




                                                    11
investigations in another audit entitled Audit of the Background Investigation Process. Two
recommendations in that report are that DOA should:

     (1) Implement a program to verify that contractors are taking steps to ensure that management
         officials, employees, and subcontractors working under a contract with the FDIC meet
         minimum standards as stated in 12 CFR 366.

     (2) Base the need for conducting database background investigations on the anticipated work of
         contract employee rather than on their designation as “key personnel.”

Accordingly, because of those recommendations and management’s positive response to them, we
make no specific recommendations in this report. However, we believe that FDIC management should
obtain the results of fingerprint analyses from the FBI before granting contractor personnel access to the
FDIC’s facilities and automated information systems.


CONCLUSION AND RECOMMENDATIONS

ACS generally provided qualified employees, accurately billed for their services, and adequately
supported its billings. However, ACS billed some employees who did not meet minimum qualifications
and billed other employees at incorrect rates. In addition, the FDIC did not perform all required
background investigations before allowing ACS employees access to its facilities and data.
Accordingly, we question $1,064,364 of the $17,795,785 that the FDIC paid to ACS and recommend
that the Director, DOA, take the following actions:

     (1) Disallow $986,191 (questioned cost)—$988,789 less $2,598 for previous ACS
         adjustments—that ACS billed for employees who did not meet the minimum education or
         experience requirements prescribed in ACS’s Federal Supply Schedule contract with the
         GSA.

     (2) Disallow $2,586 (questioned cost) that ACS billed for employees at rates other than those
         approved in the FDIC’s delivery orders and for labor categories not included in the FDIC’s
         delivery orders.

     (3) Disallow $75,587 (questioned cost) that ACS billed for an employee who disclosed on his
         ACS employment application that he was a convicted felon.

     (4) Ensure that the FDIC’s contracting officers negotiate and oversight managers administer
         delivery orders that are consistent with the terms of the GSA’s Federal Supply Schedule
         contract provisions and any related guidance for all future delivery orders awarded under
         ACS’s GSA contract.




                                                   12
CORPORATION COMMENTS AND OIG EVALUATION

In a December 5, 2000 e-mail, the Chief, Information Technology Evaluation Section, Division of
Information Resources Management (DIRM) stated that DIRM had reviewed the draft and had no
comments to offer since the report did not address any recommendations to DIRM.

On December 7, 2000, the Director, Division of Finance (DOF), provided a written response
to a draft of this report addressing delivery order 9800455CAF, which was for services that
ACS provided to DOF. The Director’s response agreed with the $383,730 of questioned costs
related to delivery order 9800455CAF and stated that DOF supports all efforts by DOA to
recover those questioned costs. Appendix II to this report presents the DOF Director’s response.

On December 21, 2000, the Director, DOA provided a written response to a draft of this report. The
Director’s response agreed with the recommendations and provided the requisites for a management
decision on each of the four recommendations. We did not summarize the Director’s response because
the actions planned or completed are the same as those recommended. Appendix III to this report
presents the DOA Director’s response.

The Chief, Information Technology Evaluation Section, DIRM, stated that DIRM would not provide a
written response to a draft of this report because the recommendations were addressed to DOA.

Appendix IV presents management’s proposed actions on our recommendations and shows that there
is a management decision for each recommendation in this report. Based on the audit work, the OIG
will report questioned costs of $1,064,364 in its Semiannual Report to the Congress.




                                                13
                                                                                             APPENDIX I


             METHODOLOGY FOR CALCULATING QUESTIONED LABOR COSTS

For each billing line, we analyzed, calculated, and categorized ACS’s labor charges as follows:

     •   If the employee met the minimum education and experience requirements and the actual billing
         rate agreed with the signed quotation attached to the FDIC’s delivery order, we categorized the
         billing line as meets. Accordingly, we accepted the billing rate, which resulted in no questioned
         costs.

     •   If the employee met the minimum education and experience requirements but the actual billing
         rate did not agree with the signed quotation attached to the FDIC’s delivery order, we
         categorized the billing line as a billing error. Accordingly, we adjusted the billing rate, which
         resulted in questioning the difference between the actual rate billed and the agreed upon rate.

     •   If the employee did not meet the minimum education and/or experience requirements, we
         determined the appropriate billing rate for which the employee qualified. We compared the
         employee’s actual education and experience to the required minimum education and experience
         in other labor categories associated with the applicable FDIC delivery order.

         a. If we found another labor category for which the required education and experience matched
            the employee’s actual education and experience, we applied the billing rate for that category
            and questioned the difference between that rate and the actual rate billed.

         b. If we did not find a labor category for which the required education and experience matched
            the employee’s actual education and experience, we searched other delivery orders that the
            FDIC awarded under ACS’s Federal Supply Schedule contract. When we found a labor
            category under another delivery order for which the employee qualified, we applied the
            billing rate for that category. Accordingly, we questioned the difference between the rate
            actually billed and the maximum rate on ACS’s Federal Supply Schedule for that category,
            less the average discount for the applicable delivery order. To determine the average
            discount rate for each delivery order, we multiplied the total estimated hours by the GSA’s
            maximum rate for each labor category and divided the results by the delivery order’s
            not-to-exceed amount for each year.




                                                     14
                                                                                               ATTACHMENT II




Federal Deposit Insurance Corporation                                                    Office of the Director
801 17th Street, N.W., Washington, D.C. 20434                                             Division of Finance




                                                             December 7, 2000

MEMORANDUM TO:                            Sharon M. Smith
                                          Assistant Inspector General




FROM:                                     Fred Selby, Director
                                          Division of Finance

SUBJECT:                                  Response to OIG Draft Report Entitled Audit of Billings for
                                          Professional Services Provided by ACS Government
                                          Solutions Group

The Division of Finance has reviewed the subject audit report dated November 15, 2000. Based
on our review, we offer the following comments:
This report shows questioned costs of $383,730 of the $4,435,256 paid under Delivery Order
9800455CAF. These questioned costs are a result of ACS providing contractors that did not
either have the education or experience requirements for the labor category for which the
contractors were hired. The Division of Finance concurs with this finding, and supports all
efforts by the Division of Administration (DOA) to recover these questioned costs.
DOF has also initiated corrective action regarding the screening of future contractors. As
recommended by the auditors, the Oversight Manager will compare perspective contractor
educational and experience qualifications to the requirements in the General Services
Administration (GSA) Schedule for personnel qualifications to assure that any perspective
contractor meets these minimum requirements for the position sought to be filled.
Thank you for the opportunity to comment on your draft report. If you have any questions with
our response or would like to discuss it further, please don’t hesitate to contact Stan Pawlowski
or myself.
Cc:       R. Elosser
          S. Anderson
          S. Pawlowski




                                                       15
                                                                                        ATTACHMENT III



            Federal Deposit Insurance
            550 17th Street, NW, Washington, DC 20429                       Division of Administration


                                                        December 21, 2000


MEMORANDUM TO: Sharon M. Smith
               Assistant Inspector General


FROM:                      Arleas Upton Kea
                           Director, Division of Administration

SUBJECT:                   Management Response to OIG Draft Report Entitled: Audit of
                           Billings for Professional Services Provided by ACS Government
                           Solutions Group


The Acquisition and Corporate Services Branch (ACSB) has completed its review of the subject
Office of Inspector General (OIG) draft report. The OIG reported two findings and made four
recommendations to the Director, Division of Administration (DOA), including $1,064,364 in
questioned costs.

Recommendations 1, 2, and 3 will require corrective actions by ACSB. Our plan to address the
recommendations is summarized in Exhibit A, which includes expected completion dates and the
documentation that will confirm the corrective actions taken. Based on this Management
Response, this also serves as a statement of certification that ACSB has completed
necessary corrective action for recommendation number 4.

MANAGEMENT DECISION:


OIG FINDING #1: The Contractor Billed (a) at Labor Category Rates That
                Employees Were Not Qualified For; (b) at Rates That Exceeded
                Those Agreed to by FDIC; and (c) for Time Charges Submitted by
                an Employee Prohibited From Working Under the Contract.

OIG Recommendation #1: Disallow $986,191 that ACS billed for employees who did not
                       meet the minimum education or experience requirements
                       prescribed in ACS’s Federal Supply Schedule contract with the
                       GSA.

OIG Recommendation #2: Disallow $2,586 that ACS billed for employees at rates other than
                       those approved in the FDIC’s delivery orders and for labor
                       categories not included in the FDIC’s delivery orders.



                                                 16
OIG Recommendation #3: Disallow $75,587 that ACS billed for an employee who disclosed
on his ACS employment application that he was a convicted felon.

Management Response #s 1, 2, 3: We agree with the finding and recommendations. DOA
will disallow and pursue recovery of any amounts that cannot be adequately supported by the
contractor. A decision memorandum and a demand letter, if necessary, will confirm our
completion of corrective action.


OIG FINDING #2: FDIC Delivery Orders Contained Contractor Employee
                Qualifications and Hourly Rates That Did Not Always Agree With
                the Terms of the Contractor’s GSA Federal Supply Schedule
                Contract Provisions.

OIG Recommendation #4: Ensure that the FDIC’s contracting officers negotiate and
                       oversight managers administer delivery orders that are consistent
                       with the terms of the GSA’s Federal Supply Schedule contract
                       provisions and any related guidance for all future delivery orders
                       awarded under ACS’s GSA contract.

Management Response #4: We agree with the finding and recommendation.

The OIG found that job descriptions and minimum education and experience requirements in
FDIC’s Statement of Work were often not consistent with labor categories and requirements
outlined in the contractor’s proposal and price list. ACSB has taken steps to eliminate these
discrepancies in the future.

       •   When ACSB completes its review of the winning bidder’s proposal that includes a
           list of labor categories and hourly rates, the contractor’s proposal becomes a part of
           the contract. In the future, before a contract is executed, ACSB will remove from
           the Statement of Work, any reference to FDIC job descriptions or related education
           and experience requirements, thereby eliminating potential contradictions.
       •   ACSB will ensure that the oversight manager (OM) receives a copy of the
           contractor’s proposal. That will enable the OM to verify that all contractor
           employees are billed at the correct GSA job category and rate.
       •   ACSB conducted a training course in September 2000 for all OMs in the Division of
           Information Resources Management covering a wide range of contract related
           weaknesses identified in several recent OIG reports. The OMs were cautioned
           against granting waivers, either real or implied, of minimum education and experience
           requirements for labor categories under a GSA contract, without written approval
           from the contracting officer.
       •   In October 2000, the Assistant Director, Acquisition Section, issued an Oversight
           Manager Job Aid, providing all OMs a quick reference summarizing their
           responsibilities under Section 7.B. of the FDIC Acquisition Policy Manual.

This response serves as a statement of certification that ACSB has completed the
necessary corrective action for recommendation #4.




                                                17
In addition to the recommendations above, the OIG expressed concern about delays in
completing background investigations for owners, employees, and subcontractors working under
FDIC contracts. While ACSB is taking steps to reduce security risks related to contractor
access to our facilities and computer systems, management is currently preparing an official
response to another OIG audit of FDIC’s background investigation process. Therefore, we will
defer comment on this issue until our official response is released later this month.

If you have any questions regarding this management response, you may contact Richard
Johnson at (202) 942-3191.




Attachment




cc:    Mike Rubino
       Deborah Reilly
       Richard Johnson
       Andrew Nickle
       Kenneth Jones




                                             18
                                                                    EXHIBIT A

                                                      DIVISION OF ADMINISTRATION
                                                   SUMMARY OF MANAGEMENT DECISION

                                                                                                                         EXPECTED     DOCUMENT
            FINDING                                                     DESCRIPTION OF CORRECTIVE
                                      QUESTIONE          AMOUNT                                                         COMPLETION     VERIFYING
          DESCRIPTION                                                            ACTION
NO.                                     D COST         DISALLOWE                                                           DATE       COMPLETIO
                                                            D                                                                              N
 1    Contractor billed charges                                         Management agreed with the finding and
      that were not allowable                                           recommendations.
      under the contract.

       a. Employee qualifications          $986,191         $986,191    DOA will take recovery actions for all
      were not commensurate with                                        amounts that the contractor is unable to
      billing rates.                                                    adequately support.

       b. ACS billed at rates not             2,586            2,586                                                                    Decision
      agreed to by FDIC.                                                                                                               Memorandum
                                                                                                                                           or
       c. ACS billed for time                75,587           75,587                                                      04/30/01       Demand
      worked by a convicted                                                                                                               Letter
      felon--prohibited under the
      contract.
 2    FDIC sometimes accepted                                           Management agreed with the finding and
      employee qualifications and                                       recommendation.
      hourly rates that did not                  -0-              -0-
      conform with the terms in the                                     --Conflicting information has been removed
      Contractor’s GSA Federal                                          from the Statement of Work.
      Supply Schedule contract                                          --OMs will receive a copy of the contract                        Decision
      provisions.                                                       proposal, and use that to verify correct GSA                   Memorandum
                                                                        labor categories and rates.                                         /
                                                                                                                                          Other
                                                                        --A training course reiterated OM
                                                                                                                                         Related
                                                                        responsibilities to enforce minimum education
                                                                                                                          Completed     Documents
                                                                        and experience requirements under a
                                                                        contractor’s GSA agreement.
                                                                        --ACSB issued an Oversight Manager Job
                                                                        Aid, providing a quick reference guide
                                                                        summarizing OM responsibilities.

                 Totals                   $1,064,364       $1,064,364




                                                                          19
                                                                                                                                              APPENDIX IV
                                              MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

     •   the specific corrective actions already taken, if applicable;
     •   corrective actions to be taken together with the expected completion dates for their implementation; and
     •   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.

If management does not agree that it should implement a recommendation, it must describe why it does not consider the recommendation valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents management’s responses on recommendations in our report and the status of management decisions. The OIG based the information for
management decisions on management's written response to our report.

                                                                             Expected Documentation That                         Management
  Rec.                                                                      Completion Will Confirm Final           Monetary      Decision:
 Number            Corrective Action: Taken or Planned / Status               Date           Action                 Benefits      Yes or No
     1        The Director, DOA, agreed with the recommendation and           04/30/01    Decision memorandum       $986,191        Yes
              stated that DOA will disallow and pursue recovery of any                    or demand letter.         disallowed
              amounts that the contractor cannot adequately support. The                                               costs
              Director, DOF, agreed with the $383,730 of questioned
              costs related to delivery order 9800455CAF for services
              that ACS provided to DOF and stated that DOF supports
              DOA’s efforts to recover those questioned costs.
     2        The Director, DOA, agreed with the recommendation and           04/30/01    Decision memorandum         $2,586        Yes
              stated that DOA will disallow and pursue recovery of any                    or demand letter.         disallowed
              amounts that the contractor cannot adequately support.                                                   costs




                                                                                20
                                                                      Expected Documentation That                   Management
 Rec.                                                                Completion Will Confirm Final     Monetary      Decision:
Number       Corrective Action: Taken or Planned / Status              Date           Action           Benefits      Yes or No
  3      The Director, DOA, agreed with the recommendation and        04/30/01   Decision memorandum    $75,587        Yes
         stated that DOA will disallow and pursue recovery of any                or demand letter.     disallowed
         amounts that the contractor cannot adequately support.                                           costs
  4      The Director, DOA, agreed with the recommendation. The      Completed Decision memorandum     Unknown         Yes
         Director stated that for delivery orders placed under the             and other related
         GSA’s Federal Supply Schedule DOA has taken steps to                  documents.
         eliminate inconsistencies in minimum education and
         experience requirements for contractor employees between
         the FDIC’s statement of work and the GSA’s contract.




                                                                21
June 4, 2001
Audit Report No. 01-002-1


Audit of Billings for Professional
Services Provided by ACS
Government Solutions Group


 Material has been redacted from this
 document to protect personal
 privacy, confidential or privileged
 information.
A C S
Harvey V. Braswell
Group President
Government Services

March 23, 2001

Honorable Gaston L. Gianni, Jr.
Inspector General Federal Deposit Insurance Corporation
Office of the Inspector General
801 17th Street NW Washington DC 20434
                                                                 Office of Inspector General (OIG)
Subject: FDIC IG Audit Report No. 01-002                                      Comments
         January 11, 2001
         Audit of Billings for Professional Services
         Provided by ACS Government Solutions Group,             N o t e 1 – The briefing paper was a
         Inc.                                                    reformatted version of the draft report,
                                                                 which incorporated ACS' response to
                                                                 our findings (see Note 2).
Dear Mr. Gianni:

ACS Government Solutions Group, Inc. (ACS GSG) is in             N o t e 2 – We provided a database of
                                                                 our questioned costs to ACS on June 27,
receipt of the above-referenced audit report. Attached is our
                                                                 2000. ACS responded in a letter dated
formal response which, we simultaneously are providing to
                                                                 July 31, 2000, parts of which we
the FDIC Department of Administration.                           incorporated into the draft report. On
                                                                 August 8, 2000, ACS also provided nine
ACS GSG disagrees with the audit findings and conclusions,
                                                                 files of clarifying and additional data,
and also is concerned about the procedures adopted by the        which was used to verify and amend our
auditors in drafting and finalizing the report. Although the     questioned costs in the draft report. We
auditors provided ACS GSG an exit conference along with a        reformatted the draft report as a briefing
copy of a briefing paper (Note 1), FDIC never provided the       document and presented it to ACS on
company with an opportunity to respond and/or comment on         September 12, 2000.
a draft audit report prior to publication. (Note 2.) This was
contrary to the understanding discussed at the exit              Note 3 – According to the audit team’s
conference, when ACS GSG was advised that it would be            notes from the exit briefing with ACS,
afforded the ability to respond and comment to the audit         Mr. [name redacted]—FDIC, Division
report. FDIC never advised that it would release a final audit   of Administration (DOA)—told ACS that
report prior to that opportunity. (Note 3.)                      he would wait for the final report before
                                                                 providing ACS a copy and beginning
Moreover, this practice is inconsistent with accepted federal    negotiations (see Note 18).
standards in this area. First, the release of a final report
without the opportunity for prior contractor comment seems       Note 4 – The OIG gave the auditee—
                                                                 the FDIC—an opportunity to respond to
contrary to the generally accepted Government auditing
                                                                 the draft report in compliance with
standards as contained in the Government Auditing                GAGAS. The audit team also gave ACS
Standards. (Note 4.) Second, it is contrary to custom and        an opportunity during the audit to
practice utilized by most other federal agencies. For            respond to the audit findings, and ACS
example the General Services Administration, which               provided a response to the OIG. The
routinely audits contractors for compliance with GSA             OIG summarized ACS’ comments and
Schedule contract issues, provides contractors with a draft      incorporated them throughout the report
report for review and comment, and incorporates the              (see Note 2).
301.921.7003 * 301.921.7140 (Fax)
harvey_braswell@acs-inc.com
One Curie Court – Rockville, MD 2D050
contractors responses in the final versions of the audit
reports.

In any event, ACS GSG has prepared and submitted our
comments to the DOA for review and consideration. We
believe that ACS GSGs comments and response should
have been incorporated into any final report prior to final        N o t e 5 – ACS’ response to the final
publication and dissemination, and as a result object to the       report (included in this document) is
public disclosure of the audit report. (Note 5.)                   essentially the same as its response to
                                                                   the exit conference. We incorporated
Therefore, we formally request that the final audit report be      ACS’ response to our findings
withdrawn in full, and the report removed from any current         throughout the report.
display or publication (such as the FDIC and IGnet sites) and
that the FDIC refrain from publishing the report in any
fashion in the future since we were not afforded the ability to
respond prior to completing the report. As an alternative, we
propose that our attached comments be included in full in
any in any current publication (including the report on the
IGnet site) prior to any other further publication or
dissemination. This practice of including the contractor's
response in a final audit report is consistent with practices at
other agencies such as GSA. If FDIC determines that it
nonetheless will display or publish the report in any manner
without the response, ACS GSG asks that FDIC remove
ACS GSG' name from the report, since ACS GSG had not               Note 6 – The OIG has not changed the
been given a fair opportunity to comment on the allegations.       published report. We incorporated ACS’
(Note 6.)                                                          position on our findings in the draft
                                                                   report and adjusted finding amounts
                                                                   based on additional information that ACS
If you would like to discuss this issue further please feel free
                                                                   provided, as appropriate.        We are
to contact me directly at 301-921 -7003.
                                                                   publishing this document, consisting of
                                                                   ACS’ position and our reply, with our
Sincerely,                                                         final report.


Harvey V. Braswell
ACS Group President

Enclosure

TOTAL P.02
Kirkpatrick & Lockhart LLP
                                                                  100 Pine Street, Suite 3200
                                                              San Francisco, CA 94111-5218
                                                                               415.249.0000
                                                                           415,249.1001 Fax
                                                                                   wwwkl.com
March 23, 2001
                                                                   Robert J. Sherry
                                                                      415.249.0000
                                                                 Fax: 415.249.1001
                                                                   Rsherry@kl.com
Mr. [name redacted]
Division of Administration
Federal Deposit Insurance Corporation
550 17th Street, N.W.
Washington, D.C. 20429

RE:      Audit of Billings for Professional Services Provided
         by ACS Government Solutions Group (Audit Report
         No. 01-002)


Dear [name redacted]:

    We are writing on behalf of ACS Government Solutions
Group, Inc. ("ACS") in response to the above-referenced audit
report. This report resulted from a review of records related to
ten delivery orders issued by FDIC for various information                                      OIG comments are shown in the detail
technology ("IT") services. The stated purpose of the review was                                section of this letter.
to determine whether ACS' billings were allowable and
adequately supported under the terms and conditions of its GSA
Multiple Award Schedule ("GSA MAS") contract and the FDIC
delivery Orders.

   We appreciate the opportunity to review and respond to the
audit report. Our review of the report, the underlying contract
and delivery orders, the facts involved, and the applicable law
and regulations leads us to disagree with the conclusions
expressed in the reports.

       Specifically, as detailed further below, the audit
    conclusions are invalid for the following reasons:

    •    FDIC accepted the now-challenged personnel in
         compliance with the terms of the pertinent delivery
         orders, which specified FDIC qualifications;

    •    FDIC misinterpreted the qualifications of many
         challenged personnel, and their qualifications met or
         exceeded the requirements established by FDIC in the
         pertinent delivery orders;

BOSTON - DALLAS - HARRISBURG - LOS ANGELES - MIAMI - NEWARK - NEW YORK - PITTSBURGH
- SAN FRANCISCO - WASHINGTON
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 2


      •     In some cases, FDIC modified the delivery orders or
            waived the qualifications of the challenged personnel by
            accepting them after performance for a probationary
            period, because they possessed certain critical skills, or
            because they were incumbents, and is now estopped from
            denying these facts;

      •      In some cases, FDIC modified or constructively changed
            the delivery orders to include additional personnel not
            previously performing delivery order efforts; and

      •      Although certain services under one of the delivery
            orders at issue were performed by a felon already
            employed at an FDIC facility by an incumbent contractor,
            neither the GSA MAS contract nor the delivery order at
            issue prohibited ACS from employing the individual, and
            the contract and delivery order do not contain provisions
            permitting recovery of related costs.

   Moreover, even if the delivery orders somehow were issued
improperly, ACS billings were proper, as they reflected the
reasonable value of the services conferred upon FDIC.

    ACS considers FDIC a valued customer. The company looks
forward to meeting with FDIC to review this response and resolve
FDIC's concerns.

    This response has four parts. Part One reviews the relevant
facts. Part Two summarizes the audit report contentions. Part
Three presents ACS' view why, as a legal matter, FDIC's audit
claims are unfounded. Part Four contains a brief conclusion.

I.          FACTS

      A. Introduction

     During the 1997-2000 timeframe, ACS provided a variety of
critical information technology ("IT") services for FDIC under a
series of ten delivery orders issued by the Division of Finance or
the Division of Information Resources Management. These
services included efforts such as systems analysis and design;
business process redesign services; personal computer technical
services; executive office management section support; national
client application server support; application technology section
support; and other activities.

    FDIC issued these delivery orders to ACS under the authority
of the General Services Administration's multiple award schedule
contract ("GSA MAS") program and

                                    2
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 3


the ACS GSA MAS contract (Contract No. GS-35F-4415G,
sometimes referred to herein as "Contract 4415").1 The GSA MAS
program enables federal agencies and similar entities to issue
orders for a wide variety of products and services, including IT
services, on a streamlined basis without conducting normal
competitive procedures at the time of the orders. The program
authorizes GSA to negotiate contracts that contain a variety of
prices, terms and conditions with IT services providers such as
ACS. These terms and conditions, in the IT services context,
include defined labor categories that contain descriptions of the
efforts that personnel in that category may perform, as well as
educational and experience qualifications corresponding to those
categories. Federal agencies and activities such as FDIC then are
entitled to place orders for services by issuing delivery orders
against the contract.
    The prices, terms and conditions contained in GSA MAS
contracts and price lists are "baselines" for the negotiation and
award of delivery orders. GSA MAS policies and procedures
suggest that these matters can be subject to negotiation and
modification in a number of circumstances. For example, the GSA
MAS program authorizes the parties to a delivery order to
negotiate reduced prices in a variety of circumstances, such as
when an agency places large orders over the contract "maximum
order threshold" stated in the contract, or when the parties intend
to enter into a series of repetitive orders for GSA MAS-covered
products and services under a so-called blanket purchase
agreement. See, e.g., FAR 8.404(b)(3), (5) (government should
seek price reductions when the order will exceed the maximum
order threshold or when blanket purchase agreements are
negotiated); FAR 8.404(b)(4), 9.6, 13.3 (use of teaming
arrangements and blanket purchase agreements); GSAR
552.238-75            (price           reductions          clause);      N o t e 7 – According to a presentation
www.fss.gsa.-gov/schedules (general guidance for price                   made by GSA’s Senior Assistant General
reductions, teaming arrangements and blanket purchase                    Counsel and a GSA White Paper—
agreements),                                                             Acquisition Sources and Alternatives—
                                                                         this applies to work to be performed and
    In a similar vein, the GSA MAS contract terms and conditions         not the contract’s basic terms and
frequently contemplate that the parties may negotiate different or       conditions such as labor qualifications.
additional terms and conditions in a particular delivery order.
(Note 7.) See, e.g., GSA MAS IT RFP No. FCIS-JB-9800001B,
sections C.9, C.11 (blanket purchase agreements and maximum              Note 8 – The FDIC issued all delivery
order threshold provisions); 1998 Modification to GSA IT RFP             orders that the OIG audited under ACS’
Terms and Conditions for Special Item No. 132-51 (IT Services),          1996 GSA Federal Supply Schedule
para. 4.c. (Note 8.) ("The Contractor guarantees ... that all            (FSS) contract. Accordingly, the new
contract personnel utilized in the performance of IT/EC services         clause was not in force during the audit
under the task order shall have the education, experience, and           period or now.
expertise as stated in the task order"). (Emphasis
1
  The contract was awarded originally in 1996 to ACS' predecessor in
interest, Computer Data Systems, Inc. ("CDSI"), CDSI changed its legal
name to ACS Government Solutions Group, Inc. in September 1998. GSA
recognized this name change by modification to Contract 4415 dated
December 4, 1998.
                                  3
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 4


added.) This is consistent with the general regulatory principle
that a contracting agency may modify a contract or delivery order
so long as it is not expressly prohibited by law or regulation. See
FAR 1. 102-4; see generally FAR 43 (contract modifications).
The GSA MAS standard contract format and governing
regulations do not in any way prohibit such modifications.

      B. The FDIC RFQ Process

    Consistent with these principles and this background, FDIC
issued ACS a request for quotation ("RFQ") prior to issuing each
of the delivery orders at issue. These RFQs each contained
specific provisions governing the types of IT services desired by
FDIC, as well as the qualifications that FDIC sought for the           N o t e 9 – The GSA’s FSS Ordering
personnel that were to perform the work. In particular, the RFQs       Procedures for Services require agencies
neither asked nor required ACS or any other offeror to propose         to include their own labor descriptions in
personnel conforming to the labor categories and corresponding         RFQs so that all contractors receiving an
qualifications for each of the categories that appeared in the GSA     RFQ can map the desired categories to
MAS contract. Instead, each RFQ requested that ACS propose             existing labor categories on their
personnel that met FDIC specific labor categories and                  respective FSS contracts. If the FDIC
corresponding qualifications. FDIC generated a separate set of         were to only include labor categories
qualifications for each category. In virtually every instance, these   from ACS’ FSS contract, FDIC might
qualifications and categories differed from those contained in the     give the appearance of making a sole-
ACS GSA MAS contract. (Note 9.)                                        source procurement.

    For example, in RFQ No. 99-00257-Q-EU, FDIC's cover letter
indicated that its requirements [were) described more fully in the
enclosed Request for Quotation (RFQ)." Section 2.2.5 of the
RFQ stated that "personnel assigned to perform the work must
demonstrate sufficient experience and qualification" and identified
very specific labor category descriptions. Section 3.1.1(5)
provided that the personnel resumes submitted had to "satisfy the
minimum qualifications listed for the appropriate labor category."
Similarly, section 7.3 of the statement of work, which was             Note 10 – On contract 98-01260-C-S2,
incorporated into the subsequent delivery order, directed the          the FDIC did not specify labor
contractor "to furnish personnel that meet the minimum                 qualifications but deferred to the
requirements listed below." Finally, the remainder of section 7.3      qualifications found in ACS’ FSS
contained detailed and specific experience requirements for each       contract.
labor category.

    ACS generally responded to these RFQs by proposing to
furnish personnel that met the FDIC-requested categories,
requirements and qualifications at rates considered fair and
reasonable in relation to those categories, services and
qualifications. As a result of the RFQ process, FDIC awarded ACS
the ten delivery orders at issue in the FDIC audit report. As
suggested by the discussion above, the delivery orders invariably
directed ACS to provide personnel that met the FDIC labor
categories and qualifications. (Note 10.)

    Certain other provisions of the delivery orders also are
relevant to the concerns expressed by the FDIC auditors in their
report. These provisions govern resumes,
                                 4
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 5

personnel, and personnel qualifications. Generally, the delivery
orders obligated ACS to provide the resumes of personnel to
FDIC that the company proposed to use in the course of
performing the delivery orders. These resumes and
corresponding personnel were, under the terms of the delivery
orders, subject to the advance approval of FDIC. See, e.g.,
Delivery Order No. 98-00779-C-EU, ¶¶13.3, 13.4; Delivery Order
No. 9800542-C-JT, ¶7.0. In at least one case, the delivery order
explicitly stated that FDIC had approved the personnel
qualifications prior to performance on the basis of the proposal.
See Delivery Order No. 97-01438-C-VB, ¶3.0.
      C. The Role of the OM and the Qualification/Approval
         Process
                                                                             Note 11 – Oversight managers do not
    Under the FDIC delivery orders, the review and approval of               have the delegated authority to modify
personnel qualifications was delegated to an oversight manager               the contract or any of its terms and
("OM"). The delivery orders generally gave the OMs explicit                  conditions. According to the FDIC’s
authority over most matters of this nature. By way of example,               contracting officer, the FDIC notified
OMs generally were required to: (1) provide task assignments to              ACS of this fact at the contract kick-off
ACS; (2) monitor task performance; (3) review all deliverables               meetings when it awarded the delivery
provided by ACS; and (4) as appropriate, review resumes and                  orders. Furthermore, as ACS notes in
make final determinations as to personnel acceptability. (Note               its June 12, 1998 e-mail (included in this
11.)                                                                         document), the contracting officer needs
    In practice, responsible ACS proposal and program                        to approve added labor categories,
management personnel generally took affirmative steps to ensure              qualifications, and the acceptability of
that OMs approved personnel. When requested by FDIC or                       the work. We found no evidence that
required by the terms of an RFQ, ACS provided copies of                      the FDIC’s oversight manager gave
resumes for each of the personnel proposed for each FDIC labor               such approvals.
category in its proposal to facilitate OM review and approval prior
to award of a delivery order.
                                                                             Note 12 – The audit team compared
     ACS also had an internal procedure in place designed to                 the information on ACS’ PQRFs to the
promote compliance with the FDIC personnel qualification                     candidates’ resumes in ACS’ personnel
requirements. ACS used its Personnel Qualification Review Form               files. For some, the PQRFs did not
("PQRF") to assess whether candidates met the stated FDIC                    accurately reflect the candidates’
qualifications. (Note 12.) In many cases, the FDIC OMs would                 qualifications shown on their resumes.
initial the PQRF upon presentation, signifying the OM's
acquiescence that the personnel were qualified for the position.
In some cases, the OM did not initial the PQRF, but provided                 Note 13 – As stated on page 7 of the
verbal acceptance to ACS program personnel. (Note 11. )                      report, the FDIC and ACS should have
                                                                             modified the delivery order to add a
     In limited circumstances, FDIC and ACS agreed that certain              labor category for which those
personnel would be used to meet FDIC requirements even though                personnel qualified along with a new—
they did not strictly meet the FDIC qualifications. (Note 13. )              lower—labor rate. Further, according to
These situations included instances in which: (1) the parties                the GSA’s contracting officer for ACS’
agreed that an employee could begin delivery order performance               FSS contract, ACS is obligated to
on a probationary basis, with the understanding that the OM could            provide personnel with qualifications that
remove the employee if he or she did not perform adequately; (2)             meet the requirements of its FSS
an OM accepted an employee because he or she possessed                       contract with the GSA.
critical skills in a particular tool or application for the delivery order
effort; or (3) an incumbent employee was retained from the prior
FDIC delivery order effort at the recommendation
                                    5
Kirkpatrick & Lockhart LLP

Mr. [name redacterd]
March 23, 2001
Page 6



of the FDIC. In many cases, FDIC provided an initialed PQRF,
signifying OM approval; other approvals were verbal.

      D. Addition of Other Personnel

     In some isolated circumstances involving Delivery Order No.
97-01315-N-LH, FDIC and ACS agreed that additional personnel
were required to fulfill FDIC's delivery order requirements, even
                                                                             Note 14 – Based on CDSI letters in the
though the additional personnel did not meet the qualifications for          FDIC’s contract files, ACS (then CDSI)
the three categories in the original delivery order. (Note 14. ) For         requested to substitute labor categories
example, in a June 15, 1998 email, the FDIC OM confirmed that                and performed unauthorized work on its
he had directed ACS (then CDSI) to add six employees in two                  own initiative.
additional categories to perform efforts not contemplated by the
labor categories or personnel originally appearing in the delivery
order. The OM advised in a prior email dated May 20, 1998 that               Note 15 – In an attempt to obtain
"[t]hese additional labor categories were found to be necessary              reimbursement for the unauthorized
and the tasks they supported and the products they produced                  work, ACS requested an oversight
were found to be acceptable." See Attachment 1. (Note 15. )                  manager to write the e-mails (included in
                                                                             this document).
      E. Employment of "John Doe" 2

    "John Doe" performed services as an ACS employee under
Delivery Order No. 98-00542-C-JT from August 1, 1998 through
October 31, 1999. AGS inherited this employee, a senior
microcomputer specialist, from an incumbent contractor. The
employee disclosed a felony conviction on an ACS application
form, but ACS apparently overlooked this fact because the
employee already was at work in an FDIC facility.

    Despite the fact that FDIC policy requires that FDIC conduct
background investigations for all contractor personnel working in            Note 16 – ACS (and CDSI) has been
FDIC facilities, FDIC neglected to conduct such an investigation             doing business with the government
until November 1999. Moreover, the GSA MAS contract and the                  since 1968 and should have known of
delivery order at issue apparently contained no prohibitions                 the prohibition against employing felons.
against the employment of a felon. (Note 16. ) Paragraph 22.0 of             Specifically, 12 CFR 366.4,
the delivery order provided only that if a contractor employee was           Disqualification      of    Contractors,
suspected of a criminal act, FDIC could revoke that employee's               prohibits felons from performing
access to FDIC systems and premises and refrain from any                     services under an FDIC contract.
payments relating to that employee's efforts after revocation.               Similar provisions are in CFR sections
                                                                             for other federal agencies.
      F. Additional          Information       Concerning   Delivery   and
      Performance

   It is noteworthy that during performance of these delivery
orders, neither the cognizant contracting officers nor the OMs
apparently questioned the acceptability of any ACS personnel or
requested replacement of any personnel that commenced
2
 We refer to this employee by a pseudonym given the subject
matter.

                                           6
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 7
                                                                       Note      17 – Although       the   FDIC
performance on a probationary basis. In other words, FDIC              oversight managers used delivery order
apparently never altered or abandoned its above-described              position    descriptions    to    evaluate
contractual practices with respect to approval and acceptance of       personnel, we noted several instances
FDIC personnel until the audit. Moreover, although ACS' invoices       where oversight managers directed ACS
for the ten delivery orders at issue generally reflected FDIC labor    to replace personnel because of various
categories and corresponding ACS-developed labor rates for             shortcomings. In addition, on contract
those categories, FDIC never objected to these billings or             97-01315-N-LH, the FDIC directed ACS
indicated that they were inconsistent in any way with the parties'     to reimburse over $23,000 in
contractual undertakings.' 3 The first time that FDIC apparently       overcharges, as explained on page 8 of
raised any concerns relating to the questioned personnel or            the report. The FDIC also found other
invoices was during the FDIC audit. (Note 17. )                        billing errors and discrepancies in the
                                                                       course of its regular invoice reviews.
II.         SUMMARY OF AUDIT REPORT

         FDIC conducted audit efforts on the ten delivery orders
during 2000, and provided ACS with an "Exit Conference Briefing        Note 18 – According to the audit
Paper” in a September 12, 2000 meeting. Although the briefing          team’s notes from the exit briefing with
paper was similar in style, tone and format to a draft audit report,   ACS, Mr. [name redacted], FDIC/DOA,
FDIC never afforded ACS an opportunity to comment formally on          told ACS that he would wait for the final
the draft, although FDIC representatives previously had indicated      report before providing ACS a copy and
that a formal response would be invited.4 (Note 18. )                  beginning negotiations.

    Instead, FDIC issued a final report on January 11, 2001 and
released a copy to ACS thereafter. Again, despite prior                Note 19 – The Yellow Book, Section
representations to the contrary, ACS was not given an opportunity      5.32, is the reporting standard for
to provide a formal response that could be incorporated into the       financial statement audits requiring
final audit report. This is inconsistent with standard practice at     submission of the report to appropriate
other agencies, such as GSA, which permits contractors in most         auditee officials. Both the FDIC and
instances to submit formal responses to a draft audit report, and      ACS were provided copies of the report.
then incorporates the responses into its final audit report.           However, because this was a
                                                                       performance audit, ACS should have
                                                                       cited Section 7.38 that requires auditors
                                                                       to report the views of responsible
                                                                       officials of the audited program. We
                                                                       incorporated the FDIC’s response into
3
  For limited periods of time, ACS billed some of the services         the report and attached it as an appendix.
provided under two delivery orders (97-01315-N-LH and                   We also incorporated ACS’ views into
98-00455-C-AF) under the GSA labor categories. In the case of          the report. Accordingly, the OIG met
the first delivery order, this occurred for the additional personnel   both Yellow Book sections.
that provided efforts requested by FDIC that were not
contemplated by the labor categories identified in the original
delivery order (see discussion above in Part I.D). ( Note 14.)
4
  This omission appears contrary to generally accepted federal
accounting standards as contained in the Government Auditing
Standards, commonly known as the "GAO Yellow Book." The
"Yellow Book" suggests in section 5.32 (Note 19) that written audit
reports are to be submitted to the auditee. That did not occur
here, and is contrary to standard practice in other similar
government audit organizations - for example, at the GSA Office
of Inspector General, which audits GSA MAS contracts for
compliance purposes.

                                 7
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 8



     FDIC's final report (Note 20 ) concluded that while ACS
generally had properly billed FDIC for services under the delivery
orders and supported those billings in the audit process, ACS had      Note 20 – The OIG performed            the
                                                                       audit and issued the audit report.    The
not completely met its obligations. In summary, FDIC challenged
                                                                       OIG is an independent and objective   unit
$1,064,364 of ACS'$17,795,785 in billings to FDIC during CY
                                                                       of the FDIC that performs audits      and
1998 and CY 1999. Those challenges can be summarized as
                                                                       investigations of FDIC programs       and
follows:
                                                                       operations.
      •     $986,191 questioned because certain ACS employees
            allegedly did not meet the qualifications in the GSA MAS
            contract;

      •     $2,586 questioned because ACS either overbilled for
            personnel in delivery orders or charged FDIC for
            personnel and/or labor categories that did not appear in
            the delivery orders; and

      •     $75,587 questioned because ACS had received payments
            for the services of a felon.                               Note 21 – In calculating questioned
                                                                       costs, the OIG used the delivery order
                                                                       labor rates that the FDIC negotiated with
    For the first set of questioned costs, FDIC assumed that GSA
                                                                       ACS.
labor categories -and, apparently, corresponding labor rates –
applied (Note 21 ) to govern the parties' relationship, regardless
of their agreement to the contrary.5 FDIC also suggested, without
                                                                       Note 22 – In addition to the
elaboration or further explanation, that if the FDIC categories and
                                                                       information the OIG provided to ACS
rates applied instead of the GSA ones, that the total questioned
                                                                       regarding questioned costs prior to the
costs would increase to $1.652 million. (Note 22. )                    draft report being issued on November
                                                                       15, 2000 (see Note 2), 2 days after
    The report also acknowledged that FDIC "accepted some              issuing the draft report the OIG provided
contract employees who did not meet minimum requirements               a complete database—including reports
because they had specific skills needed to complete critical           detailing questioned costs using both the
tasks." Audit Report at 7 (emphasis added). The report also            FDIC and GSA qualifications—to ACS
acknowledge[d] the need for these critical skills," but implicitly     and the FDIC.
concluded that such arrangements somehow do not contractually
bind FDIC. 6 (Note 23. )
                                                                       Note 23 – The report recommends
   On the second point, FDIC noted that ACS had corrected a            that the billing rates be reduced to match
number of billing errors on affected delivery orders, but              a labor category for which those
nonetheless questioned certain other costs                             personnel qualified.


5
  In fact, the report acknowledges that FDIC OMs principally
evaluated qualifications based on FDIC labor categories and not
on the GSA MAS labor categories. Audit Report at 7.
6
  In a very similar context, FDIC auditors have conceded that          Note 24 – This report states on page 4
"FDIC changed the GSA's education and experience                       that “. . . the FDIC delivery orders may
requirements...."Audit Report No. 00-048, at 5. The ACS audit          have changed the GSA contract terms.”
report does not identify any reasons why this concession was not
made in this instance. ( Note 24.)

                                   8
Kirkpatrick & Lockhart LLP

Mr. [name reedacted]
March 23, 2001
Page 9


largely because ACS "increased billing rates and added labor
categories without any delivery order modifications." Audit Report
at 8. The report did not address whether the parties had agreed
to modify the delivery orders to meet FDIC's requirements.

    On the third issue, FDIC conceded that "[b]ecause the FDIC
did not perform all required background investigations, some
contract employees improperly gained access to FDIC facilities
and data...." Audit Report at 10. Nonetheless, FDIC apparently
questioned the costs because: (1) the felon had disclosed the
conviction on his ACS application; (2) FDIC policy mandated that
FDIC perform background checks on all contractor personnel
working in FDIC facilities; and (3) FDIC regulation and policy
prohibited a felon from performing services under an FDIC
contract. The report identified no provision in the contract or
delivery order that imposed these conditions, as a contractual         Note       25 – 12       CFR       366.4,
matter, on ACS and further identified no provision permitting the      Disqualifica-tion     of     Contractors,
FDIC to demand a refund for work performed by a felon. (Note           prohibits felons from performing
25.)                                                                   services under an FDIC contract.
                                                                       Similar provisions are in CFR sections
Ill.        DISCUSSION                                                 for other federal agencies. ACS had
                                                                       very few private sector clients. In 1997,
       A. The Audit Report Incorrectly Questions Costs on the Basis    98 percent of ACS’ revenues were from
       of Qualifications                                               government contracts.        Its primary
                                                                       purpose is to service government
            1.      ACS Personnel Met the Qualifications Established   agencies. ACS should have known that
            by the Contract As Modified by the FDIC's Delivery         it could not provide felons to work on an
            Orders.                                                    FDIC contract.

    The FDIC effectively modified the contract with ACS when the
agency created its own schedule of labor categories and                Note 9 is a description of how the FSS
corresponding qualifications (Note 9.) To the extent that these        contracting process works.
categories and qualifications did not fall squarely within the
categories established in the GSA contract, FDIC modified that
portion of ACS' contract. ACS performed in accordance with the
FDIC's modification, and the FDIC similarly is obligated to perform
in accordance with its modification.

     It is worth recounting that nothing in the GSA MAS contract --
or even in the GSA MAS governing regulations -- prohibits
procuring activities from modifying the terms and conditions of the
contract or including such terms and conditions in delivery orders
to meet unique requirements. Indeed, as discussed above in Part
I.A, activities frequently are encouraged to consider such changes
where they clearly benefit the government or will result in
business efficiencies. In any event, when regulations do not           N o t e 8 points out that modifications
prohibit particular contract actions, procuring activities clearly     apply to work to be performed, not the
possess the ability to modify contracts and issue delivery orders      contract’s basic terms and conditions
utilizing terms and conditions that reflect reasoned business          such as labor qualifications.
judgment. See FAR 1.102-4(e). (Note 8.)

                                   9
Kirkpatrick & Lockhart LLP

Mr. [name reedacted]
March 23, 2001
Page 10




    Thus, when a procuring activity reaches outside the four corners of
the established GSA MAS scheme and the contractor commits to
those modified requirements, the parties are obligated to perform in
accordance with the modified requirements. For example, in C-MOR
Co., ASBCA Nos. 30479, 31789, 87-2 BCA 119,682, the agency's oral
modifications to an established requirements contract were held to bind
both parties. In C-MOR, the agency and the contractor were required to
perform in accordance with the agency's oral solicitation, even though
the BCA held that the terms of that solicitation did not fall within the
scope of the original requirements contract. Here, the work performed
by ACS clearly falls within the scope of the GSA MAS contract. ACS
and the FDIC both intended to be bound by the modifications to that
contract, which were effected through the award of the delivery orders by
the FDIC.

     This obligation extends not only to FDIC's decision to impose
different labor categories, qualifications and prices on ACS, but to the
decision to request or accept personnel that did not strictly meet the
FDIC qualifications. As mentioned above in Part I.C, FDIC and ACS
agreed that certain personnel would be used to meet FDIC requirements
even though they did not strictly meet the FDIC qualifications. These
situations included: (1) probationary employment; (2) "critical skills";
and (3) incumbency. As the government representative identified in the
delivery orders to review and approve personnel qualifications, the OM
fully was empowered to agree to use of these personnel. See Centre
Mfg. Co. v. United States, 392 F.2d 229 (1968); Fox Valley
Engineering Inc. v. United States, 151 Ct. Cl. 228 (1960); Miller
Elevator Co. v. United States, 30 Fed. Cl. 662 (1994).

     In short, the FDIC qualifications governed ACS' performance, and
the audit erred by assuming that GSA qualifications governed. The
parties agreed as a contractual matter that the FDIC standards would         Note 26 – To the contrary, some
govern, and FDIC was empowered to modify the GSA MAS contract                FDIC delivery order qualifications were
and/or issue delivery orders to reflect this agreement. Moreover, FDIC       more      rigorous than     the    GSA
was free to - and did - modify the delivery orders further to request and    qualifications.
accept personnel that did not meet the FDIC standards.

     Given this conclusion, the audit report provides no basis for
challenging costs incurred by ACS and paid by FDIC. The audit report         Note 27 – The OIG only assigned a
suggests that if FDIC qualifications and not GSA qualifications are          zero value in instances when no
used, the total amount of challenged costs increases to roughly $1,652       qualifying FDIC labor category existed.
million. Because the FDIC qualifications generally are less rigorous than    We were able to associate all hours billed
the GSA qualifications - and the corresponding labor rates, similarly, are   to a GSA labor category and this
lower -this statement appears unsupportable. In fact, it is. (Note 26.)      approach resulted in lower amounts
The audit report apparently drew this conclusion by simply assigning a
                                                                             being questioned. Therefore, the OIG
value of $0 to any situation in which the auditors believed that an ACS
                                                                             based its questioned costs on the GSA
employee did not meet the requisite FDIC standards. (Note 27.) This
conclusion represents flawed methodology. The report did not do an           qualifications.
appropriate comparison of ACS personnel to FDIC standards.

                                     10
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 11


            2. FDIC Waived Any Failure to Meet Stated Qualifications

     Even if the GSA qualifications somehow bound ACS -- or the
parties had not modified their agreements to permit the
substitution of personnel that were probationers, possessed
critical skills, or were incumbents -- the audit report fails to
recognize that FDIC waived any right it possessed to insist that
only GSA-qualified personnel be provided under the delivery
orders. The parties' course of dealing makes it quite clear, in
contrast, that FDIC waived any contractual rights it had on this
score.

     "There can be no doubt that a contract requirement for the
benefit of a party becomes dead if that party knowingly fails to
exact its performance, over such an extended period, that the
other side reasonably believes the requirement to be dead." See
Gresham & Co. v. United States, 470 F.2d 542 (Ct. Cf. 1972). Put
differently, when a contract requirement is repeatedly ignored or
work that is out of scope of the contract is repeatedly authorized
by a Government representative, the requirements are
constructively waived. Miller Elevator Co. v. United States, 30
Fed. Cl. 662 (1994).

    In two pertinent circumstances, FDIC waived contract terms
even if it could not modify them. First, FDIC waived any
requirement that GSA qualifications be met. It did this by
repeatedly issuing RFQs that identified specific FDIC labor            Note 9 is a description of how the FSS
categories and qualifications and requiring that proposals and         contracting process works.
subsequent performance comport with those standards.
(Note 9.) See Gresham, 470 F.2d at 556 (government's failure to
enforce a specification over a series of contracts extinguished
requirement to perform in accordance with it).

    Second, FDIC expressly waived the requirements of the              Note 11 explains that oversight
delivery orders in numerous circumstances in which it requested        managers do not have the delegated
or accepted the use of personnel that were probationers,               authority to modify the contract or any
incumbents, or possessed critical skills. This was done, as            of its terms and conditions and that the
discussed above in Part I.C, either by initialing the PQRF or by       FDIC notified ACS of that fact at each
granting an oral waiver. (Note 11.)                                    of the delivery order kick-off meetings.

    This pattern of acceptance of personnel that did not squarely
meet the GSA or FDIC category qualifications established that the
FDIC waived these requirements under the delivery orders with
ACS. Here, even if the GSA categories are applicable, the FDIC
repeatedly waived those requirements and replaced them with
their own. Further, even where the FDIC audit report asserts that
ACS employees did not meet the FDIC requirements, authorized
personnel of FDIC also repeatedly waived those requirements.
Gresham, 470 F.2d at 555-56 (authorized representatives waived
contract specification language); Miller Elevator, 30 Fed. Cf. at
688-90 (authorized

                                   11
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 12


representatives waived contract provisions requiring written
approvals from contracting officer before performing additional        Note 28 – According to the FDIC’s
work).7                                                                contracting officer, the FDIC never
                                                                       intended to deviate from the GSA.
            3. FDIC Is estopped from Changing Contract Terms After     schedule labor category qualifications.
            Contract Performance                                       The FDIC included labor categories to
                                                                       facilitate contractors’ matching of the
     FDIC requested ACS to provide a proposal to perform IT            FDIC’s needs to similar categories
services in accordance with FDIC's own labor categories and            included in contractors’ GSA schedules.
qualifications, at corresponding rates. (Note 28.) FDIC awarded         (See Note 9 .)
ACS a series of delivery orders in response to ACS' conforming
proposals. During performance, FDIC directed ACS to furnish
personnel that either did not fully meet qualifications or were not
                                                                       Note 29 – The audit team saw no
listed in the delivery order. (Note 29.) Finally, FDIC accepted        evidence of the FDIC requesting
performance and paid ACS for that performance.                         unqualified personnel or labor categories
                                                                       that were not included in delivery orders.
    Now, well after the fact, the audit report seeks to undo the
                                                                       ACS suggested that categories not
FDIC's contractual obligations. In light of this history, the FDIC
                                                                       included in delivery orders be supplied as
cannot now repudiate its actions. ACS has relied on the actions
                                                                       a cost-saving measure. ACS then billed
and directions of the FDIC in performing IT services under the
                                                                       for those individuals at the maximum
delivery orders. FDIC now is estopped from denying its obligation
                                                                       labor rate that its GSA contract allowed
to pay ACS in accordance with the prior understanding of the
                                                                       although     ACS      discounted     other
parties.
                                                                       categories billed under the contract 11.9
     Estoppel prevents undue hardship to a contractor who has          percent.
detrimentally relied upon an earlier inconsistent position of the
Government. Miller Elevator Co. v. United States, 30 Fed. Cl. 662
(1994). Clearly, the FDIC's shift in position during the audit from
its position during the issuance of delivery orders and approval of
labor categories results in an undue hardship on ACS if that shift
causes the repayment of monies received for services already
performed and accepted.

    The government has been estopped from changing a course
of dealing in similar circumstances. For example, the government
was prohibited from reneging on its prior course of dealing with a
contractor, even where that course of dealing arose only by
implication through the acceptance of accounting manuals.
Peninsular ChemResearch Inc., ASBCA No. 14384, 71-2 BCA
19066 (government required to continue accepting results of
accounting method previously approved). Even when a
government representative embodies a mistake of law into an            Note 30 – The report also explains that
order, that order will be upheld and the Government is estopped        the    FDIC     should     have   issued
from repudiating the order - such as a contract modification -         modifications to its delivery orders that
merely because of its own mistaken interpretation. Broad Avenue        added labor categories—at lower rates—
                                                                       for which the employees would have
7
  In this regard, it must be noted that the audit report conceded      qualified. The audit report draws no
that FDIC "accepted some contract employees who did not meet           legal conclusions, nor does this
minimum requirements.... Audit Report at 7 (emphasis added).           document respond to ASC’s attorney’s
Even the audit conclusions recognize that FDIC modified or             legal arguments.
waived its earlier qualifications, as FDIC was entitled to do. (Note
30.)

                                  12
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 13


Laundry and Tailoring v. United States, 681 F.2d 746, 749-50 (Ct.
Cl. 1982) (government estopped from denying existence of
contract modification and liability for payment so long as the
official acted within scope of authority and that action was not
palpably illegal). Here, as in Broad Avenue, the government
directed and agreed to ACS' actions, and ACS relied on that
direction or agreement in its performance of the FDIC delivery
orders. The FDIC cannot now simply abandon its prior requests
and commitments after the contract has been performed in
accordance with the FDIC's direction and the parties' agreement.8

      B. Costs Associated With Additional Personnel Furnished by
      ACS That Were Not Identified in FDIC Delivery Orders Are
      Allowable

   As discussed in Parts I.D. and 11 above, the audit report
challenged $2,586 in costs paid by FDIC to ACS principally
because those charges reflected efforts by employees in labor            Note 14 shows that ACS requested to
categories that were not contained in a delivery order.9 (Note 14        substitute labor    categories  and
& Note 15.) FDIC's oral modification of the delivery order to add        performed unauthorized work on its
personnel not identified, and ACS' acceptance of that                    own.
modification, creates a contractual obligation on both parties.
C-MOR Co.,                                                               Note 15 shows that the e-mails ACS
8
                                                                         included in this document were written
  It is clear that during performance, the parties interpreted the       by an oversight manager at the request
delivery orders to require substitution of FDIC categories and           of ACS in an attempt to be reimbursed
qualifications for the corresponding GSA ones (Note 31), as the          for the unauthorized work.
course of dealing - including invoicing and payment -
demonstrates. Great weight must be given to the practical
interpretation of a contract by the parties before the auditors
questioned that interpretation. Centre Mfg. Co. v. United States,        Note      31 – According      to     the
392 F.2d 229, 234 (Ct. Cl. 1968). Even if there was some                 contracting officer, the FDIC never
ambiguity in the parties' prior agreements relating to the use of        intended to alter the GSA’s FSS contract
FDIC categories and qualifications, those must be construed              provisions.
against the government as the drafter of the agreements. Big
Chief Drilling Co. v. United States, 26 Cl. Ct. 1276, 1299 (1992).
In this regard, FDIC amended its RFQs after ACS had performed
most of its efforts at issue here to make clear that in the future,
"offerors should utilize the labor categories from their GSA
Schedule that best meet the ideal candidate descriptions      and
the "GSA labor description will be incorporated into the Delivery        Note 32 – This change does not affect
Order.” FDIC FSS RFQ, version 3.2 (July 2000). ( Note 32.)               delivery orders that the FDIC previously
9                                                                        issued to ACS.
  The relevant section of the audit report actually questions
$9,073 of the costs charged by ACS on the grounds that the
employees did not meet minimum GSA qualifications, and $14,066
because ACS billed FDIC for services performed by employees              Note 33 – The FDIC directed ACS to
whose labor categories did not appear in Delivery Order No.              repay $23,429 in overcharges as
97-01315-N-LH. This total amount of $23,139 was offset by                discussed on page 8 of the report.
certain billing errors that ACS made in FDIC's favor ( Note 33), for a   These overcharges are in addition to the
total questioned amount of $2,586. ACS' views on the allowability        $2,586 in net errors that we identified
of the $9,073 are presented in the discussion in Part III.A above.       for personnel billed at incorrect rates.

                                 13
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 14


ASBCA Nos. 30479, 31789, 87-2 BCA ¶19,682. The parties
clearly agreed that ACS would furnish six additional personnel in
two labor categories at specified rates, and government
representatives acknowledged this fact - as well as the                 Note 34 – ACS proposed using subject
acceptability of the services - in two emails. See Attachment 1.        matter specialists and technical writers
(Note 34. )                                                             who were not included in the delivery
                                                                        order. The e-mails attached to this
    In addition, the oral modification of the delivery order            response are ACS’ attempt to justify
constitutes a constructive change to the delivery order. A              using different labor categories to the
constructive change to a contractual instrument occurs when the         FDIC contracting officer in order to be
contractor is directed to perform work beyond the contract              paid.
requirements. Miller Elevator, 30 Fed. Cl. at 677-80. Here, as the
emails suggest, the OM directed that the services at issue be
provided and indicated that they were acceptable. The emails
also suggest that the contracting officer did not object to the OM's    Note 35 – The e-mails do not include
request or payment for these services. (Note 35.) Thus, the             the FDIC contracting officer’s approval,
contracting officer clearly seems to have considered the request        which was never granted.
for additional services to be within the scope of the OM's
authority, and in any event the contracting officer ratified the OM's
actions and the payment for the services. (Note 36. ) See id. at        Note 36 – The audit team found no
685; Williams v. United States, 127 F. Supp. 617, cert. denied,         evidence of ratification by the FDIC’s
349 U.S. 938 (1955); Reliable Disposal Co., ASBCA No. 40100,            contracting officer.
91-2 BCA ¶23,895.

   Alternatively, as suggested by the discussion in Part III.A.3
above, FDIC is estopped from denying its obligation to
compensate ACS for the additional personnel, since the request
was within the authority of the contracting officer, and the
government's request was not palpably illegal. Broad Avenue, 681
F.2d at 749-50.

    For each of these reasons, ACS is entitled to retain, and FDIC
cannot validly challenge, the payment of $14,066 for these
services.10

      C. Costs Associated With John Doe's Employment on the
      FDIC Delivery Order Are Allowable                                 Note 37 – In general, no one convicted
                                                                        of a felony can work for the federal
    As discussed in Parts I.E and II. above, the audit report           government either directly or under
challenged $75,587 in costs paid by FDIC to ACS for services            contract. Specifically, 12 CFR 366.4,
performed by Mr. Doe, a felon. The report concedes, as it must,         Disqualification    of     Contractors,
that FDIC bore the responsibility imposed by its own internal           prohibits felons from working on an
procedures to ensure that background checks are performed               FDIC contract. Similar provisions are in
before a contractor employee obtains access to FDIC facilities          CFR sections for other federal agencies.
and equipment. Certainly, no provision in the GSA MAS contract          ACS should have been aware of this
or the pertinent delivery order imposed this obligation on ACS.         prohibition since most of its revenue
(Note 37.) Moreover, the audit report did not -- and cannot --          comes from government contracts.
identify any contract or delivery order provision that prohibited
payments to ACS for services rendered by Mr. Doe prior to the
10
     See supra note 9.

                                 14
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 15


time that FDIC directed that he be removed from the project. Cf.
Delivery Order No. No. 98-00542-C-JT, ¶22.0.11

    Had FDIC followed its own internal policy and regulation in this      Note 38 – ACS required the employee
instance, the issue would not have arisen. But it cannot shift this       to complete an employment application
transgression to ACS. (Note 38. ) Absent inclusion of a specific          as a new hire to ACS. The employee
clause in the contract or delivery order either directly or by            disclosed a felony conviction on an ACS
incorporation, those requirements did not apply to ACS. General           form. However, as ACS stated on page
Electric Co., ASBCA No. 36005, 91-3 BCA 124,353 (where parties            6 of this response, it overlooked that
did not incorporate specifications into specific contracts there was      fact. According to the GSA’s primary
no obligation for contractor to conform to those specifications). In      contracting officer for ACS’ FSS
addition, neither the contract nor the delivery order contain a           contract, it is the contractor's
contract provision permitting recovery of payments for the                responsibility to provide only qualified
services provided by Mr. Doe. American Contractors, GSBCA No.             employees.
10363, 92-2 BCA ¶24,899 (government action against contractor
such as termination for default not available when contract does
not specify that clause as a remedy for contractor conduct). In
fact, the delivery order specified only that ACS could not receive
compensation for services rendered after FDIC determined that
an employee may have committed a criminal act. Consequently,
ACS properly charged and received payment for those services.12

    ACS regrets that this error occurred, and recognizes that Mr.
Doe did disclose his conviction on an employment application. But
as the audit report admits, Mr. Doe already was employed by
another FDIC contractor and was performing similar functions at
the time that FDIC awarded ACS the delivery order at issue. It was
thus not wholly unreasonable for ACS to assume that he was
acceptable to FDIC and that all required background checks had
been performed concerning him. ACS is committed to ensuring
that this incident does not recur, and will not, in the future, provide
FDIC with the services of a felon when that individual discloses
the conviction in his employment application or a FDIC
background check reveals the fact. However, ACS is fully entitled
to retain the $75,587 under the terms of the contract and delivery
order.
11
  ”In the case where a Contractor's employee ... is suspected of
committing a criminal act, FDIC can immediately revoke the
employee's access to all FDIC systems and premises without
requesting authorization of the Contractor. Payment to the
Contractor relative to any employee whose access has been
revoked shall not extend beyond the date and time of such
revocation."
12
  Moreover, the prior course of dealing between the parties (as
well as the fact that John Doe was an incumbent) suggested that
the parties had agreed that John Doe was an appropriate
employee and that ACS would be remunerated for his services.
See, e.g., Miller Elevator Co. V. United States, 30 Fed. Cl. 662,
688-89 (1994).


                                  15
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 16


      D. Assuming That FDIC Could Not Modify the Contract or
      Issue the Delivery Orders to Reflect FDIC Requirements, ACS
      Still Was Entitled to Payment at FDIC Rates

    Even if FDIC improperly modified the GSA MAS contract
and/or issued the delivery orders to reflect FDIC labor categories,
qualifications and rates, ACS' billings still are allowable. The
conduct of the parties demonstrated that they had entered into an
implied-in-fact contract (or contracts) for the IT services, and ACS'
rates reflect the reasonable value of the services in the                Note 39 – The personnel that the OIG
                                                                         questioned did not meet the required
marketplace. (Note 39. )
                                                                         qualifications specified in ACS’ FSS
                                                                         contract with the GSA. Therefore, as
   Over the course of ten delivery orders, the course of dealing
                                                                         explained in appendix I to the report,
between FDIC and ACS demonstrated the following agreement:
                                                                         their billing rates were reduced to labor
                                                                         categories for which they qualified.
      •     FDIC required a proposal that reflected responsiveness to
                                                                         Accordingly, the OIG’s questioned costs
            the specific labor categories and qualifications provided
                                                                         are based on fair and reasonable labor
            by FDIC in its RFQs and Statements of Work;
                                                                         rates for those individuals as established
                                                                         in ACS’s FSS contract with the GSA.
      •     FDIC required specific rates corresponding to these
            categories and qualifications;

      •     ACS provided proposals responsive to the RFQs;

      •     FDIC and ACS agreed to employ personnel in certain
            circumstances that did not fully meet FDIC qualifications;
            and

      •     ACS billed FDIC for these services and FDIC paid the
            billings in accordance with the parties' agreement.

      Thus, even if the delivery orders were improper, the parties
still had one - or a series - of implied-in-fact contracts to provide
IT services under the FDIC categories, qualifications and
corresponding rates. The elements of an implied-in-fact contract
include (1) mutuality of intent to contract; (2) consideration; (3)
lack of ambiguity in offer and acceptance, and (4) binding conduct
by the government by an actor with authority. City of El Centro v.
United States, 922 F.2d 816, 820 (Fed. Cir. 1990), cert. denied,
501 U.S. 1230 (1991).

    These elements are met here. FDIC and ACS clearly intended
to contract -FDIC desired IT services and ACS desired payment.
The parties course of dealing clearly demonstrated an intent that
ACS meet the FDIC qualifications and receive payment at
corresponding rates specified in the proposals and delivery
orders, and that

                                    16
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 17


this basic agreement could be modified to reflect an agreement to
substitute particular personnel with different qualifications. Accord Miller   Note 40 – Oversight managers do not
Elevator, 30 Fed. Cl. at 688-89 (parties' course of dealing established        have the authority to bind the
over several contracts and several years of performance). Finally, as          government. ACS was apprised of that
discussed above in Part III.A, the contracting officers executed the           fact in the kick-off meetings for each of
delivery orders reflecting the parties' agreement to the basic terms and       the 10 delivery orders. Furthermore, as
conditions of the implied-in-fact contracts, and the OMs clearly               ACS notes in its June 6, 1998 e-mail
possessed the requisite authority to bind the government as to certain
                                                                               attached to this letter, the contracting
additional matters such as probationary periods and hiring of personnel
                                                                               officer needs to approve added labor
with critical skills. (Note 40.)
                                                                               categories, qualification changes, and the
    Similar cases have resulted in recovery for the contractor. For            acceptability of the work.
example, in Integral Biomedical Engineering Inc., IBCA No. 2069,
88-2 BCA 120,570, the agency procured IT software and services
without the requisite GSA delegations of procurement authority. The
government attempted to refrain from paying the contractor because the
underlying agreement may have been illegal. The board held that an
implied-in-fact contract existed for the reasonable value of the goods
and services. The board further held that the contract price constituted
the reasonable value for the IT services because the government could
not show that lower prices were available for the services and because
the contractor's proposal was accepted as offered.                             Note 41 – The personnel that the OIG
                                                                               questioned did not meet required
     Here, similarly, FDIC cannot show that lower prices were available
                                                                               qualifications. (See Note 42 .)
for personnel meeting the FDIC qualifications (Note 41), and the ACS
pricing for these services was solicited and accepted without
qualification. In fact, that pricing must be acceptable because it was
predicated on the higher GSA MAS pricing, which the GSA contracting
officer had determined was fair and reasonable, and which was
effectively "most favored customer" pricing as a matter of GSA policy. In
sum, ACS is entitled to retain the monies it received for all of the
questioned services because FDIC received the benefit of those
services, and the FDIC pricing reflects the reasonable value of those
services in the marketplace.

IV.         CONCLUSION

     As detailed above, the audit report makes certain erroneous
assumptions about the ACS GSA contract and the delivery orders in
effect between the FDIC and ACS. In addition, the report ignores
numerous instances in which FDIC modified or waived the terms of the
governing delivery orders. Finally, in a number of cases, FDIC did not
properly assess qualifications of personnel provided by ACS under the
delivery orders, and improperly assumes that the contract and delivery
order require ACS to return funds paid by FDIC for services provided by
a felon. Accordingly, we do not believe that the audit report provides
basis for concluding that FDIC is entitled to recover $1,064,364 under
the GSA contract or related delivery orders.

                                    17
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001
Page 18


    Accordingly, ACS requests that FDIC withdraw its audit report
in full, remove the report from any current display or publication
(such as the FDIC and IGnet sites) and that FDIC refrain from
publishing the report in any fashion in the future. Alternatively,
ACS requests that FDIC display or publish the report only in a
format that includes this response. If FDIC determines that it
nonetheless will display or publish the report in any manner
without the response, ACS asks that FDIC remove ACS' name
from the report, since ACS had not been given a fair opportunity
to comment on the allegations. Finally, ACS further asks that
FDIC make a finding and determination that no money is due to
FDIC as a result of the audit allegations.

    We look forward to discussing this response with FDIC and
working with FDIC to resolve these issues. Should you wish to
discuss this response or any other aspects of the matter, please
contact [name redacted] at ACS at (301) [redacted] or the
undersigned.

Sincerely,

Robert J. Sherry

RJS/mlb

                               18
Kirkpatrick & Lockhart LLP

Mr. [name redacted]
March 23, 2001


ATTACHMENT 1
Note 42 – This e-mail indicates that
ACS knew that the FDIC’s contracting
officer (Tom Harris) had to approve
adding labor categories. As cited in
Notes 36 and 37 , the contracting
officer did not approve the additional
categories. Instead, the FDIC requested
and received reimbursement for the
work that was not authorized.
